No. 19-4126
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
LEON HAWKINS,

)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
DONNIE MORGAN, Warden,
Respondent-Appellee.

Apr 07, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: KETHLEDGE, Circuit Judge.

Leon Hawkins, an Ohio prisoner proceeding pro se, appeals the district court’s denial of
his 28 U.S.C. § 2254 petition for a writ of habeas corpus as time-barred. This court construes
Hawkins’s timely notice of appeal as an application for a certificate of appealability (“COA”).
See Fed. R. App. P. 22(b)(2). Hawkins has filed a motion to proceed in forma pauperis on
appeal.
In 1997, a jury convicted Hawkins of two counts of aggravated murder with death
penalty specifications, one count of attempted aggravated murder, one count of aggravated
burglary, and one count of aggravated robbery. The trial court sentenced Hawkins to a term of
imprisonment of thirty years to life.

The Ohio Court of Appeals affirmed the trial court’s

judgment, State v. Hawkins, No. 97APA06-740, 1998 WL 134321, at *7 (Ohio Ct. App. Mar. 24,
1998), and the Ohio Supreme Court denied Hawkins’s delayed application for leave to appeal,
State v. Hawkins, 700 N.E.2d 333 (Ohio 1998) (table). On April 5, 1999, the United States
Supreme Court denied Hawkins’s petition for a writ of certiorari. Hawkins v. Ohio, 526 U.S.
1053 (1999).
In September 2009, Hawkins filed a motion for a new trial, which the trial court
construed as a petition for post-conviction relief and denied as untimely. State v. Hawkins, No.

No. 19-4126
-2-

^96CR-2229 (Franklin Cty., Ohio Ct. Com. PI. Apr. 16, 2010). In August 2011, he filed another
petition for post-conviction relief, which the trial court denied. State v. Hawkins, No. 96CR2229 (Franklin Cty., Ohio Ct. Com. PI. Jan. 26, 2012), aff’d, State v. Hawins, 10th Dist. No.
12AP-164 (Ohio Ct. App. Sept. 27, 2012). Flawkins then moved for resentencing in December
2017. The trial court denied the motion, and the Ohio Court of Appeals affirmed. See State v.
Hawkins, No. 18AP-126, 2018 WL 6807128, at *2 (Ohio Ct. App. Dec. 27, 2018). Hawkins
filed another motion for resentencing in May 2018. The trial court denied this motion, and the
Ohio Court of Appeals affirmed. See State v. Hawkins, No. 18AP-600, 2019 WL 643296, at *2
(Ohio Ct. App. Feb. 14, 2019), leave to appeal denied, 122 N.E.3d 217 (Ohio 2019) (table).
In September 2019, Hawkins filed a § 2254 petition in the district court, raising a single
ground for relief—that the trial court erred by sentencing him on each aggravated-murder count.
Pursuant to Rule 4 of the Rules Governing § 2254 Cases in the United States District Courts, a
magistrate judge conducted an initial review of the petition and concluded that it was barred by
the one-year statute of limitations set forth in the Antiterrorism and Effective Death Penalty Act
(“AEDPA”). See 28 U.S.C. § 2244(d). Hawkins objected, arguing that he could not have raised
his claim until the Ohio Supreme Court’s 2016 decision in State v. Williams, 71 N.E.3d 234, 239
(Ohio 2016), which held that, when a sentencing court determines that a defendant has been
convicted of allied offenses of similar import, it is prohibited from imposing multiple sentences
for those offenses. Hawkins asserted that he was “raising] this claim under the Double Jeopardy
[Cjlause.” The district court overruled Hawkins’s objections, dismissed his petition as barred by
the statute of limitations, and declined to issue a COA.
To obtain a COA, a petitioner must make “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). When the district court denies a habeas petition on
a procedural ground without reaching the underlying constitutional claims, a COA should issue
when the petitioner demonstrates “that jurists of reason would find it debatable whether the
petition states a valid claim of the denial of a constitutional right and that jurists of reason would

No. 19-4126
-3•‘‘find it debatable whether the district court was correct in its procedural ruling.”

Slack v.

McDaniel, 529 U.S. 473, 484 (2000).
AEDPA imposes a one-year statute of limitations for filing federal habeas corpus
petitions. 28 U.S.C. § 2244(d)(1). Generally, the one-year statute of limitations for habeas
petitions filed by state prisoners begins to run on “the date on which the judgment became final
by the conclusion of direct review or the expiration of the time for seeking such review.” 28
U.S.C. § 2244(d)(1)(A). The statute provides for tolling of the limitations period during the time
in which “a properly filed application for State post-conviction or other collateral review with
respect to the pertinent judgment or claim is pending.” 28 U.S.C. § 2244(d)(2). And, under
certain circumstances, the AEDPA limitations period may be equitably tolled.

Holland v.

Florida, 560 U.S. 631, 645 (2010). “[A] ‘petitioner’ is ‘entitled to equitable tolling’ only if he
shows ‘(1) that he has been pursuing his rights diligently, and (2) that some extraordinary
circumstance stood in his way’ and prevented timely filing.”

Id. at 649 (quoting Pace v.

DiGuglielmo, 544 U.S. 408, 418 (2005)). A credible showing of actual innocence may also
allow a habeas petitioner to overcome AEDPA’s limitations period. McQuiggin v. Perkins, 569
U.S. 383,387 (2013).
Hawkins’s conviction became final on April 5, 1999, when the Supreme Court denied his
certiorari petition. See Gonzalez v. Thaler, 565 U.S. 134, 150 (2012). Absent tolling, he had one
year from that date, or until April 5, 2000, to file a § 2254 petition in the district court.
Hawkins’s petition was untimely because he filed it in September 2019, nearly twenty years after
the expiration of the limitations period. And none of Hawkins’s post-conviction petitions had a
tolling effect because they were filed long after the limitations period had expired. See Vroman
v. Brigano, 346 F.3d 598, 602 (6th Cir. 2003). Further, Hawkins did not allege, nor did the
record reveal, any extraordinary circumstances that would warrant equitable tolling.
Instead, Hawkins maintained that he could not have raised his double jeopardy claim
until the Ohio Supreme Court’s decision in Williams. But Williams concerned the issue of
sentencing for allied offenses of similar import under Ohio law, not federal constitutional law.

No. 19-4126
-4>1
/And
although § 2244(d)(1)(C) allows for the delay of the start of the statute of limitations for a

newly recognized constitutional right, that right must have been newly recognized by the United
States Supreme Court. There is no reason why Hawkins could not have raised a federal double
jeopardy claim prior to the Williams decision. Moreover, to the extent Hawkins wished to raise a
challenge to his sentence under state law, such claims are not cognizable on habeas review. See
Estelle v. McGuire, 502 U.S. 62, 67-68 (1991).
Reasonable jurists would not debate the district court’s denial of Hawkins’s § 2254
petition as barred by the statute of limitations. See Slack, 529 U.S. at 484. His application for a
COA is therefore DENIED, and his motion to proceed in forma pauperis is DENIED as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case: 2:19-cv-03870-SDM-CMV Doc #: 12 Filed: 11/20/19 Page: 1 of 2 PAGEID #: 61

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
LEON HAWKINS,
CASE NO. 2:19-CV-3870
JUDGE SARAH D. MORRISON
Magistrate Judge Chelsey M. Vascura

Petitioner,
v.
WARDEN, ROSS CORRECTIONAL
INSTITUTION,
Respondent.

OPINION AND ORDER
On October 30, 2019, this Court overruled Petitioner’s objections and adopted and
affirmed the Magistrate Judge’s Report and Recommendation dismissing the Petition. (ECF No.
8.) On November 18, 2019, Petitioner filed a Motion for Reconsideration (ECF No. 9) on the
grounds that the Court misconstrued Petitioner’s argument to be based on the Double Jeopardy
Clause. Rather, he contends his argument is based on Ohio’s allied offenses statute.
As the Court made clear in footnote 1 of the Court’s previous order, to have a cognizable
claim under 28 U.S.C. § 2254, it must be the case that Petitioner is arguing that the Ohio state
courts made an error offederal law, not state law. Jackson v. Smith, 745 F.3d 206, 214 (6th Cir.
2014). A state court’s incorrect application of Ohio’s allied offenses statute would not be an error
of federal law. See id. The Court has no jurisdiction to consider such an alleged error.
Petitioner’s Motion for Reconsideration is DENIED.
Petitioner has also sought leave to appeal the Court’s October 30, 2019, Order in forma
pauperis. (ECF No. 10.) In that Order, the Court declined to issue a certificate of appealability,
certified that any appeal would not be in good faith, and stated that any application to proceed in

k>(S

V/i

Case: 2:19-cv-03870-SDM-CMV Doc #: 12 Filed: 11/20/19 Page: 2 of 2 PAGEID #: 62

forma pauperis on appeal should be denied. Accordingly, Petitioner’s Motion for Leave to
Appeal in forma pauperis is DENIED.
The same remains true with respect to this Order on Petitioner’s Motion for
Reconsideration. The Court is not persuaded that reasonable jurists could debate that dismissal of
this action is warranted (and that reconsideration is not warranted) on the grounds that Petitioner
relies on a state law claim, which is not cognizable under 28 U.S.C. § 2254. Therefore, the Court
DECLINES to issue a certificate of appealability.
The Court CERTIFIES that any appeal would not be in good faith such that an
application to proceed in forma pauperis on appeal should be DENIED.
IT IS SO ORDERED.
/s/ Sarah D. Morrison
SARAH D. MORRISON
UNITED STATES DISTRICT JUDGE

2

Case: 2:19-cv-03870-SDM-CMV Doc #: 3 Filed: 09/20/19 Page: 1 of 6 PAG El D #: 38

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
LEON HAWKINS,
CASE NO. 2:19-CV-3870
JUDGE SARAH D. MORRISON
Magistrate Judge Chelsey M. Vascura

Petitioner,
v.

WARDEN, ROSS CORRECTIONAL
INSTITUTION,
Respondent.
ORDER and
REPORT AND RECOMMENDATION
This is an action pursuant to 28 U.S.C. § 2254 for a writ of habeas corpus. Petitioner
seeks release from confinement imposed pursuant to a state-court judgment in a criminal action.
This case has been referred to the Undersigned pursuant to 28 U.S.C. § 636(b) and Columbus
General Order 14-1 regarding assignments and references to the United States Magistrate Judges.
Petitioner has filed a motion to proceed in forma pauperis. (ECF No. 1.) Upon
consideration, the undersigned finds the motion to be meritorious, and it is GRANTED.
Petitioner shall be PERMITTED to prosecute this action without prepayment of fees or costs
and judicial officers who render services in this action will do so as if costs had been prepaid.
Pursuant to Rule 4 of the Rules Governing Section 2254 Cases in the United States
District Court (“Rule 4”), this Court must conduct a preliminary review to determine whether “it
plainly appears from the face of the petition and any attached exhibits that the petitioner is not
entitled to relief in the district court....” If it does so appear, the petition must be dismissed.
Id. Rule 4 allows for the dismissal of petitions that raise legally frivolous claims, as well as
petitions that contain factual allegations that are palpably incredible or false. Carson v. Burke,

Case: 2:19-cv-03870-SDM-CMV Doc #: 3 Filed: 09/20/19 Page: 3 of 6 PAG El D #: 40
(

court denied appellant's motion noting that “[defendant did not receive a void or
partially void judgment, and is not entitled to a resentencing hearing.”
State v. Hawkins, 10th Dist. No. 18AP-600, 2019 WL 643296, at *1 (Ohio Ct. App. Feb. 14,
2019). On May 15, 2019, the Ohio Supreme Court declined to accept jurisdiction of Petitioner’s
appeal. State v. Hawkins, 155 Ohio St.3d 1458 (Ohio 2019).
On September 6, 2019, Petitioner filed this pro se habeas corpus petition. He asserts, as
his sole ground for relief, that the trial court improperly sentenced him on two counts of
aggravated murder. Plainly, however, this action is time-barred.
II. STATUTE OF LIMITATIONS
The Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA), effective April 24,
1996, imposes a one-year statute of limitations on the filing of habeas corpus petitions. 28
U.S.C. § 2244(d). Section 2244(d) provides:
(d)(1) A 1-year period of limitation shall apply to an application for a writ of
habeas corpus by a person in custody pursuant to the judgment of a State court.
The limitation period shall run from the latest of—
(A) the date on which the judgment became final by the conclusion of direct
review or the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by State
action in violation of the Constitution or laws of the United States is removed, if
the applicant was prevented from filing by such State action;
(C) the date on which the constitutional right asserted was initially recognized by
the Supreme Court, if the right has been newly recognized by the Supreme Court
and made retroactively applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims presented could
have been discovered through the exercise of due diligence.
(2) The time during which a properly filed application for State postconviction or
other collateral review with respect to the pertinent judgment or claim is pending
shall not be counted toward any period of limitation under this subsection.

3

Case: 2:19-cv-03870-SDM-CMV Doc #: 3 Filed: 09/20/19 Page: 5 of 6 PAGEID #: 42

698 F. App’x 244, 246-47 (6th Cir. 2017) (citing Allen v. Siebert, 552 U.S. 3, 7 (2007)).
Additionally, Petitioner does not allege, and the record does not reflect, any extraordinary
circumstances that would justify equitable tolling of the statute of limitations, particularly for the
time period at issue here. See Holland v. Florida, 560 U.S. 631, 649 (2010) (In order to obtain
equitable tolling of the statute of limitations, a litigant must establish that he has been diligently
pursued relief and that some extraordinary circumstance stood in his way of timely filing.)
(citing Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005)).
Finally, the record does not reflect that any of the provisions of 2244(d)(1)(B) - (D)
apply. Petitioner argues that relief is warranted under State v. Williams, 148 Ohio St.3d 403
(Ohio 2016), which held that “when a sentencing court concludes that an offender has been
found guilty of two or more offenses that are allied offenses of similar import... it should
permit the state to select the allied offense to proceed on for purposes of imposing sentence and
it should impose sentence for only that offense.”. To the extent that this claim may be liberally
construed to raise a claim under the Double Jeopardy Clause, see Jackson v. Smith, 745 F.3d
206, 210 (6th Cir. 2014); Ball v. Knab, No. 2:09-cv-480, 2010 WL 4570226, at *7-8 (S.D. Ohio
Oct. 12, 2010), nothing prevented Petitioner from earlier raising this issue which would have
been readily apparent to him at the time of sentencing.
IV. DISPOSITION
For the foregoing reasons, the undersigned RECOMMENDS that this action be
DISMISSED as time-barred.
Procedure on Objections
If any party objects to this Report and Recommendation, that party may, within fourteen
days of the date of this Report, file and serve on all parties written objections to those specific

5

